oe (COOKIE

e ] Bri £ E-Mail Address:
Omaha, Nebraska 68102-1214 54 uy Shee contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-893

DR. SHIMON WARONKER,
Petitioner,
v.
HEMPSTEAD UNION FREE SCHOOL DISTRICT, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this-brief contains 2994 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

      
    

hi Bale

Affiant

 
   

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

Notary Public
